Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




 MEDICARE COMPLIANCE REVIEW
      OF ORLANDO HEALTH
FOR THE PERIOD JANUARY 1, 2011,
    THROUGH JUNE 30, 2012


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                       Brian P. Ritchie
                                                 Assistant Inspector General
                                                      for Audit Services

                                                        September 2014
                                                        A-04-13-07042
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8M of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

Orlando Health did not fully comply with Medicare requirements for billing inpatient services,
resulting in overpayments of at least $1,453,243 over 1½ years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and other data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represents 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

The objective of this review was to determine whether Orlando Health (the Hospital) complied
with Medicare requirements for billing inpatient and outpatient services on selected types of
claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

The Hospital is a 1,788-bed network of hospitals based in Orlando, Florida. According to
CMS’s National Claims History data, Medicare paid the Hospital approximately $332 million for
34,676 inpatient and 166,694 outpatient claims for services provided to beneficiaries during
January 1, 2011, through June 30, 2012 (audit period).

Our audit covered $11,799,937 in Medicare payments to the Hospital for 1,260 inpatient claims
that were potentially at risk for billing errors. We selected for review a stratified random sample
of 218 inpatient claims with payments totaling $2,075,152. These 218 claims had dates of
service in our audit period. We did not review any outpatient claims.

WHAT WE FOUND

The Hospital complied with Medicare billing requirements for 143 of the 218 inpatient claims
we reviewed. However, the Hospital did not fully comply with Medicare billing requirements
for the remaining 75 claims, resulting in net overpayments of $462,142 for the audit period.
These errors occurred primarily because the Hospital did not have adequate controls to prevent
the incorrect billing of Medicare claims within the selected risk areas that contained errors.




Medicare Compliance Review of Orlando Health (A-04-13-07042)                                          i
On the basis of our sample results, we estimated that the Hospital received overpayments of at
least $1,453,243 for the audit period.

WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare contractor $1,453,243 in estimated overpayments for the audit
        period for claims that it incorrectly billed and

    •   strengthen controls to ensure full compliance with Medicare requirements.

ORLANDO HEALTH COMMENTS

In written comments on our draft report, the Hospital agreed with our findings. However,
regarding our recommendation to refund to the Medicare contractor $1,453,243 in estimated
overpayments, the Hospital expressed concerns about the methodology and the statistical validity
of the amount extrapolated. The Hospital also stated that our methodology substantially
overestimates the overpayment amount because it does not reflect the potential Medicare Part B
reimbursement that could result from rebilling the claims that the Hospital should have billed as
outpatient or outpatient with observation services. Regarding our second recommendation, the
Hospital provided information on corrective actions that it had taken.

OFFICE OF INSPECTOR GENERAL RESPONSE

In response to the Hospital’s concerns regarding our extrapolation methodology and statistical
validity, Federal courts have consistently upheld statistical sampling and extrapolation as a valid
means to determine overpayment amounts in Medicare. Additionally, the legal standard for use
of sampling and extrapolation is that it must be based on a statistically valid methodology, not
the most precise methodology. We properly executed our statistical sampling methodology in
that we defined our sampling frame and sampling unit, randomly selected our sample, applied
relevant criteria in evaluating the sample, and used statistical sampling software (i.e., RAT-
STATS) to apply the correct formulas for the extrapolation.

We acknowledge that the Hospital may rebill Medicare for the incorrectly billed inpatient
claims; however, the rebilling issue is beyond the scope of our audit. CMS has issued the final
regulations on payment policies (78 Fed. Reg. 160 (Aug. 19, 2013)), and the Hospital should
contact its Medicare contractor for rebilling instructions. As stated in the report, we were unable
to determine the effect that billing Medicare Part B would have had on the overpayment amount
because the Hospital had not billed, and the Medicare contractor had not adjudicated, these
services prior to the issuance of our report.

Therefore, we continue to recommend that the Hospital refund to the Medicare contractor
$1,453,243 in estimated overpayments.




Medicare Compliance Review of Orlando Health (A-04-13-07042)                                      ii
                                                     TABLE OF CONTENTS

INTRODUCTION ...........................................................................................................................1

           Why We Did This Review ...................................................................................................1

           Objective ..............................................................................................................................1

           Background ..........................................................................................................................1
                 The Medicare Program ............................................................................................1
                 Hospital Inpatient Prospective Payment System .....................................................1
                 Hospital Outpatient Prospective Payment System ...................................................1
                 Hospital Claims at Risk for Incorrect Billing ..........................................................2
                 Medicare Requirements for Hospital Claims and Payments ...................................2
                 Orlando Health .........................................................................................................3

           How We Conducted This Review........................................................................................3

FINDINGS .......................................................................................................................................3

           Billing Errors .......................................................................................................................4
                   Incorrectly Billed as Inpatient ..................................................................................4
                   Incorrectly Billed as Separate Inpatient Stays .........................................................4
                   Incorrectly Billed Diagnosis-Related-Group Codes ................................................4
                   Incorrect Discharge Status .......................................................................................5

           Overall Estimate of Overpayments ......................................................................................5

RECOMMENDATIONS .................................................................................................................5

ORLANDO HEALTH COMMENTS AND OFFICE OF THE INSPECTOR GENERAL
RESPONSE ..................................................................................................................................6

           Orlando Health Comments ..................................................................................................6

           Office of Inspector General Response .................................................................................6

APPENDIXES

           A:   Audit Scope and Methodology ......................................................................................7
           B:   Sample Design and Methodology ..................................................................................9
           C:   Sample Results and Estimates ......................................................................................11
           D:   Results of Review by Risk Area ..................................................................................12
           E:   Orlando Health Comments ...........................................................................................13




Medicare Compliance Review of Orlando Health (A-04-13-07042)                                                                                     iii
                                         INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and other data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represents 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Orlando Health (the Hospital) complied with Medicare
requirements for billing inpatient and outpatient services on selected types of claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Under the inpatient prospective payment system (IPPS), CMS pays hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services




Medicare Compliance Review of Orlando Health (A-04-13-07042)                                      1
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •   inpatient short stays,

    •   inpatient claims paid in excess of charges,

    •   inpatient claims with cancelled surgical procedures,

    •   inpatient same day discharges and readmissions,

    •   inpatient claims billed with high-severity-level DRG codes, and

    •   inpatient claims billed for kyphoplasty services. 2

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the Act
precludes payment to any provider of services or other person without information necessary to
determine the amount due the provider (§ 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.


1
 The health care industry uses HCPCS codes to standardize coding for medical procedures, services, products, and
supplies.
2
 Also called “balloon kyphoplasty,” medical professionals use this procedure to treat compression fractures of the
spine. See National Institutes of Health’s “Medicine Plus” Web site. Available online at
http://www.nlm.nih.gov/medlineplus/ency/article/007511.htm. Accessed on June 19, 2014.



Medicare Compliance Review of Orlando Health (A-04-13-07042)                                                         2
Orlando Health

The Hospital is a 1,788-bed network of hospitals based in Orlando, Florida. According to
CMS’s National Claims History (NCH) data, Medicare paid the Hospital approximately
$332 million for 34,676 inpatient and 166,694 outpatient claims for services provided to
beneficiaries during January 1, 2011, through June 30, 2012 (audit period).

HOW WE CONDUCTED THIS REVIEW

Our audit covered $11,799,937 3 in Medicare payments to the Hospital for 1,260 inpatient claims
that were potentially at risk for billing errors. We selected for review a stratified random sample
of 218 claims with payments totaling $2,075,152. These 218 claims had dates of service in our
audit period. We did not review any outpatient claims.

We focused our review on the risk areas identified as a result of prior OIG reviews at other
hospitals. We evaluated compliance with selected billing requirements and subjected 50
inpatient claims to medical and coding reviews to determine whether the services were medically
necessary and properly coded. This report focuses on selected risk areas and does not represent
an overall assessment of all claims submitted by the Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our audit scope and methodology.

                                                  FINDINGS

The Hospital complied with Medicare billing requirements for 143 of the 218 inpatient claims
we reviewed. However, the Hospital did not fully comply with Medicare billing requirements
for the remaining 75 claims, resulting in net overpayments of $462,142 for the audit period.
These errors occurred primarily because the Hospital did not have adequate controls to prevent
the incorrect billing of Medicare claims within the selected risk areas that contained errors.

On the basis of our sample results, we estimated that the Hospital received overpayments of at
least $1,453,243 for the audit period.



3
 This was the dollar value of our sample frame at the time of the initial data extraction from the NCH. However,
during the course of our review, the Medicare contractor adjusted some of the claims in our sample frame, including
sampled claims, due to mass wage-index adjustments. Therefore, we reviewed the 218 sample items and determined
which ones were adjusted. The sample results include the adjusted claims’ paid amounts.



Medicare Compliance Review of Orlando Health (A-04-13-07042)                                                     3
See Appendix B for our sample design and methodology, Appendix C for our sample results and
estimates, and Appendix D for the results of our review by risk area.

BILLING ERRORS

Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, §1862(a)(1)(A)).

For 52 of the 218 selected claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that it should have billed as outpatient or outpatient with observation services. The
Hospital said that the errors occurred because of various factors such as limited staffing
resources, admission and order complexity, and its use of multiple Electronic Medical Record
(EMR) systems.

As a result of these errors, the Hospital received overpayments of $433,969. 4

Incorrectly Billed as Separate Inpatient Stays

The Manual (chapter 3, § 40.2.5) states that, when a patient is discharged or transferred from an
acute care hospital and is readmitted to the same hospital on the same day for symptoms related
to, or for evaluation and management of, the prior stay’s medical condition, hospitals should
adjust the original claim generated by the original stay by combining the original and subsequent
stay onto a single claim.

For 4 of the 218 selected claims, the Hospital billed Medicare separately for related discharges
and readmissions within the same day. The Hospital stated that the errors occurred because it
did not match the billed diagnosis codes to the patients’ subsequent admissions.

As a result of these errors, the Hospital received overpayments of $17,213.

Incorrectly Billed Diagnosis-Related-Group Codes

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, §1862(a)(1)(A)). In addition, the Manual states: “In order to be
processed correctly and promptly, a bill must be completed accurately” (chapter 1, § 80.3.2.2).


4
  The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have had on the overpayment amount because the Medicare administrative contractor had not adjudicated
these services prior to the issuance of our report.



Medicare Compliance Review of Orlando Health (A-04-13-07042)                                                            4
For 18 of the 218 selected claims, the Hospital submitted claims to Medicare with incorrectly
coded claims that resulted in the higher DRG payments to the Hospital. For example, the
Hospital submitted a claim with a secondary diagnosis of pleural effusion. However, the medical
records did not support the coding of this diagnosis. By including this secondary diagnosis, the
Hospital increased the weight of the DRG, which resulted in an overpayment. The Hospital
attributed these errors to several factors such as limited staffing resources, use of multiple EMR
systems, and not updating medical documentation in the system after the coding cycles were
completed.

As a result of these errors, the Hospital received net overpayments of $12,992.

Incorrect Discharge Status

Federal regulations state that a discharge of a hospital inpatient is considered to be a transfer
when the patient’s discharge is assigned to one of the qualifying DRGs and the discharge is to a
skilled nursing facility (SNF) (42 CFR § 412.4(c)). A hospital that transfers an inpatient under
the above circumstance is paid a graduated per diem rate for each day of the patient’s stay in that
hospital, not to exceed the full DRG payment that would have been paid if the patient had been
discharged to another setting (42 CFR § 412.4(f)).

For 1 of the 218 selected claims, the Hospital incorrectly billed Medicare for a patient discharge
to a SNF instead of to a hospice medical facility. Thus, the Hospital received the graduated per
diem payment instead of the full DRG payment it would have received if it had correctly coded
the patient’s discharge status. The Hospital stated that this error occurred because it acquired the
pertinent medical documentation after it had completed its coding cycles.

As a result of this error, the Hospital was underpaid $2,032.

OVERALL ESTIMATE OF OVERPAYMENTS

On the basis of our sample results, we estimated that the Hospital received overpayments of at
least $1,453,243 for the audit period.

                                      RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare contractor $1,453,243 in estimated overpayments for the audit
        period for claims that it incorrectly billed and

    •   strengthen controls to ensure full compliance with Medicare requirements.




Medicare Compliance Review of Orlando Health (A-04-13-07042)                                       5
     ORLANDO HEALTH COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE

Orlando Health Comments

In written comments on our draft report, the Hospital agreed with our findings. However,
regarding our recommendation to refund to the Medicare contractor $1,453,243 in estimated
overpayments, the Hospital expressed concerns about the methodology and the statistical validity
of the amount extrapolated. The Hospital also stated that our methodology substantially
overestimates the overpayment amount because it does not reflect the potential Medicare Part B
reimbursement that could result from rebilling the claims that the Hospital should have billed as
outpatient or outpatient with observation services. Regarding our second recommendation, the
Hospital provided information on corrective actions that it had taken. The Hospital’s comments
are included in their entirety as Appendix E.

Office of Inspector General Response

In response to the Hospital’s concerns regarding our extrapolation methodology and statistical
validity, Federal courts have consistently upheld statistical sampling and extrapolation as a valid
means to determine overpayment amounts in Medicare. 5 Additionally, the legal standard for use
of sampling and extrapolation is that it must be based on a statistically valid methodology, not
the most precise methodology. 6 We properly executed our statistical sampling methodology in
that we defined our sampling frame and sampling unit, randomly selected our sample, applied
relevant criteria in evaluating the sample, and used statistical sampling software (i.e., RAT-
STATS) to apply the correct formulas for the extrapolation.

We acknowledge that the Hospital may rebill Medicare for the incorrectly billed inpatient
claims; however, the rebilling issue is beyond the scope of our review. CMS issued the final
regulations on payment policies (78 Fed. Reg. 160 (Aug. 19, 2013)), and the Hospital should
contact its Medicare contractor for rebilling instructions. As stated in the report, we were unable
to determine the effect that billing Medicare Part B would have had on the overpayment amount
because the Hospital had not billed, and the Medicare contractor had not adjudicated, these
services prior to the issuance of our report.

Therefore, we continue to recommend that the Hospital refund to the Medicare contractor
$1,453,243 in estimated overpayments.




5
 See Anghel v. Sebelius, 912 F. Supp. 2d 4 (E.D.N.Y. 2012); Miniet v. Sebelius, 2012 U.S. Dist. LEXIS 99517
(S.D. Fla. 2012); Bend v. Sebelius, 2010 U.S. Dist. LEXIS 127673 (C.D. Cal. 2010).
6
 See Anghel v. Sebelius, 912 F. Supp. 2d 4, 18 (E.D.N.Y. 2012); Transyd Enter., LLC v. Sebelius, 2012 U.S. Dist.
LEXIS 42491 at *13 (S.D. Tex. 2012).



Medicare Compliance Review of Orlando Health (A-04-13-07042)                                                       6
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY
SCOPE

Our audit covered $11,799,937 in Medicare payments to the Hospital for 1,260 inpatient claims
that were potentially at risk for billing errors. (See footnote 3.) We selected for review a
stratified random sample of 218 claims with payments totaling $2,075,152. These 218 claims
had dates of service in the period January 1, 2011, through June 30, 2012 (audit period). We did
not select any outpatient claims for review.

We focused our review on the risk areas identified as a result of prior OIG reviews at other
hospitals. We evaluated compliance with selected billing requirements and subjected 50 claims
to medical and coding reviews to determine whether the services were medically necessary and
properly coded.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient
areas of review because our objective did not require an understanding of all internal controls
over the submission and processing of claims. We established reasonable assurance of the
authenticity and accuracy of the data obtained from the NCH file, but we did not assess the
completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted fieldwork at the Hospital during July of 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Hospital’s inpatient and outpatient paid claims data from CMS’s NCH file
        for the audit period;

    •   used computer matching, data mining, and analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

    •   selected a stratified random sample of 218 inpatient claims totaling $2,075,152 for
        detailed review (Appendix B);

    •   reviewed available data from CMS’s Common Working File for the sampled claims to
        determine whether the claims had been cancelled or adjusted;

    •   reviewed the itemized bills and medical record documentation provided by the Hospital
        to support the sampled claims;



Medicare Compliance Review of Orlando Health (A-04-13-07042)                                      7
    •   requested that the Hospital conduct its own review of the sampled claims to determine
        whether the services were billed correctly;

    •   reviewed the Hospital’s procedures for assigning DRG, HCPCS, and admission status
        codes for Medicare claims;

    •   used an independent contractor to determine whether 50 claims met medical necessity
        requirements and were properly coded;

    •   discussed the incorrectly billed claims with Hospital personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments;

    •   used the results of the sample review to calculate the estimated Medicare overpayments
        to the Hospital (Appendix C); and

    •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Orlando Health (A-04-13-07042)                                     8
                   APPENDIX B: SAMPLE DESIGN AND METHDOLOGY

POPULATION

The population contained inpatient and outpatient claims paid to the Hospital for services
provided to Medicare beneficiaries during the audit period.

SAMPLING FRAME

We obtained a database of claims from CMS’s NCH data totaling $210,625,406 for 12,006
inpatient and 50,771 outpatient claims in 29 risk areas.

From these 29 areas, we selected 6 inpatient areas consisting of 7,004 inpatient claims totaling
$55,953,123 for further review.

We performed data analyses of the claims within each of the six risk areas. For strata one, two,
and four, we removed claims with payment amounts less than $3,000. For stratum three, we
removed claims where the payment amount was less than $5,000 over the charged amount.

We also removed the following:

     •    $0 paid claims,
     •    claims under review by the Recovery Audit Contractor, and
     •    claims duplicated within individual risk areas.

We assigned each claim that appeared in multiple risk areas to just one area based on the
following hierarchy: Inpatient Claims Paid in Excess of Charges, Inpatient Claims Billed With
High-Severity-Level DRG Codes, and Inpatient Short Stays. This resulted in a sample frame of
1,260 unique Medicare claims in 6 risk areas totaling $11,799,937. (See footnote 3.)

                                                                         Number
                                                                           of        Amount of
                                Risk Area                                Claims       Payments
1.       Inpatient Short Stays                                               449      $3,841,802
2.       Inpatient Claims Billed With High-Severity-Level DRG Codes          778       7,621,159
3.       Inpatient Claims Paid in Excess of Charges                            8         193,423
4.       Inpatient Claims With Cancelled Surgical Procedures                   9          39,532
5.       Inpatient Same Day Discharges and Readmissions                       15          89,615
6.       Inpatient Claims Billed for Kyphoplasty Services                      1          14,406
                                    Total                                  1,260     $11,799,937




Medicare Compliance Review of Orlando Health (A-04-13-07042)                                       9
SAMPLE UNIT

The sample unit was a Medicare paid claim.

SAMPLE DESIGN

We used a stratified random sample. We stratified the sampling frame into six strata based on
the risk area. All claims are unduplicated, appearing in only one area and only once in the entire
sampling frame.

SAMPLE SIZE

We selected 218 claims for review as follows:

                                                                 Claims in
                                                                 Sampling           Claims in
  Stratum                       Risk Area                         Frame              Sample
     1         Inpatient Short Stays                                      449                   85
               Inpatient Claims Billed With High-
      2        Severity-Level DRG Codes                                    778               100
      3        Inpatient Claims Paid in Excess of Charges                    8                 8
               Inpatient Claims With Cancelled Surgical
      4        Procedures                                                     9                  9
               Inpatient Same Day Discharges and
      5        Readmissions                                                  15                 15
               Inpatient Claims Billed for Kyphoplasty
      6        Services                                                      1                 1
                          Total Sampled Claims                           1,260               218

SOURCE OF RANDOM NUMBERS

We generated the random numbers using the OIG, Office of Audit Services, (OIG/OAS)
statistical software Random Number Generator.

METHOD FOR SELECTING SAMPLE UNITS

We consecutively numbered the claims within strata one and two. After generating the random
numbers for strata one and two, we selected the corresponding claims in each stratum. We
selected all claims in strata three through six.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the total amount of Medicare
overpayments in our sampling frame for the Hospital during the audit period.




Medicare Compliance Review of Orlando Health (A-04-13-07042)                                     10
                   APPENDIX C: SAMPLE RESULTS AND ESTIMATES

SAMPLE RESULTS

                                                                   Number of
                                                                   Incorrectly
               Frame                                                  Billed     Value of Net
                Size        Value of   Sample          Value of     Claims in   Overpayments
 Stratum      (Claims)       Frame      Size           Sample        Sample       in Sample
    1              449      $3,841,802     85           $757,319             40       $354,087
    2              778       7,621,159    100          1,014,531             20         21,025
    3                 8        193,423       8           159,647              1         15,842
    4                 9         39,532       9            39,569              9         39,569
    5                15         89,615     15             89,680              4         17,213
    6                 1         14,406       1            14,406              1         14,406
  Total          1,260     $11,799,937    218         $2,075,152             75       $462,142

ESTIMATES

                    Estimated Value of Overpayments for the Audit Period
                     Limits Calculated for a 90-Percent Confidence Interval

                                 Point Estimate           $2,121,020
                                 Lower limit              $1,453,243
                                 Upper limit              $2,788,796




Medicare Compliance Review of Orlando Health (A-04-13-07042)                                11
                     APPENDIX D: RESULTS OF REVIEW BY RISK AREA

                                                        Value of         Claims With
                                        Selected        Selected        Underpayments            Value of Net
          Risk Area                     Claims          Claims          /Overpayments           Overpayments
 Inpatient
 Short Stays                                    85        $757,319                        40            $354,087
 Claims With Cancelled
                                                  9          39,569                         9              39,569
 Surgical Procedures
 Claims Billed With High-
                                               100       1,014,531                        20               21,025
 Severity-Level DRG Codes
 Same Day Discharges and
                                                15           89,680                         4              17,213
 Readmissions
 Claims Paid in Excess of
                                                  8         159,647                         1              15,842
 Charges
 Claims Billed for
                                                  1          14,406                         1              14,406
 Kyphoplasty Services
   Inpatient Totals                            218      $2,075,152                        75            $462,142


Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient claims
by the risk areas we reviewed. However, we have organized this report’s findings by the types of billing errors we
found at the Hospital. Because we have organized the information differently, the information in the individual risk
areas in this table does not match precisely with this report’s findings.




Medicare Compliance Review of Orlando Health (A-04-13-07042)                                                       12
                            APPENDIX E: ORLANDO HEALTH COl.VIl.VIENTS


    I~
                          1-'11.4 K,,hl ,\•:•
                          Orl~»l<k'. Ff. :l2~06
ORlANDO IHAlTH            3.; I.M3.7(ii.IO

     ~,



  July 31, 2014

   Ms. Loris. Pilcher
   Regional lnsp~ctor General for Audit Services
   Office of Audit Services, Region IV
   61 Forsyth Street SW Suite 3T41
   Atlanta, GA 30303

   Re: Report Number: A 04·13.07042

   Dear Ms. Pilcher:

  We are writing on behalf of Orlando Health to respond to th~ Office of lnsp~ctor General's (OIG)Draft
  Audit Report No. A-04-1HJ7042 entitled Medicare: Compliance Review of Orlando Health for the Period
  January 1, 2011, Through June 30, 2012 received by Orlando Health on friday June 27, 2014.

   Orlando Health is one of Florida's comprehensive private, not·for·profit healthcare organizations. Since
   1918, Orlando Health has been part of the Gneater Orlando community, growing from a single hospital
   in Orlando into an award-winning family of community and specialty hospitals in Central Florida. From
   our rigorous training programs for new physicians to our emphasis on medical research, technology, and
   innovation, we proudly offer a world-renowned cancer center and the region's only Level One Trauma
   Centers for children and adults. Orlando Health's total Community Benefit in 2013 was $233 Million;
   Cost of providing Charity care was $76 Million with a Total Value to the Community of $289 Million. We
   work hard to support our mission, "To Improve the Health and Quality of Life of the Individuals and the
   Communities We Serve.•

   Background:

   The audit covered $11,799,937 in Medicare payments for 1.260 inpatient accounts in the audit period.
   The Draft Report identified a total alleged overpayment of $462,142 based on a universe of 218 Claims
   that the OIG specifically selected as being at risk for billing error after reviewing the medical record
   documentation for each claim. We agreed that we complied with the Medicare billing requirements for
   143 of the 218 inpatient claims that the OIG auditors reviewed and the remaining 75 claims were
   medically necessary services for the beneficiaries but wene technical errors as the ciaims were billed as
   inpatient rather than outpatient.

   The Draft Report section "Executive Summary" states that Orlando Health did not comply with Medicare
   requirements for billing inpatient services, resulting in an extrapolated overpayment amount of
   $1,453,243 over an 18 month period. This extrapolated amount resulted from the sampled claims' error
   rate projected (estimated) to all claims in the sampling frame. The two selected areas at risk from the
   statistical sampling were the Inpatient Short Stays and the Inpatient Claims billed with High Severity­
   Level Diagnosis Related Group Codes, of which extrapolation applies. The number of incorrectly billed
   claims in the sample totaled 40 claims that were technical billing denials and 20 claims were due to
   insufficient documentation and equate to $375,112 in net overpayments for this 18 month period. The




Medicare Complictr¥:e Review ofOrlando Health (A-04-13-07042)                                              13
                                ' ;.,·..hl A"·~:.
    ~~
                          ·.:. :.:
                              

                          O;Janc.c-. fL 32~U6
ORLANDO I HALTH           -'~ !.~· : ,:., ~fl{10




     '~'· 

   care and services provided by Orlando Health to the Medicare beneficiaries were medically necessary on
   all claims in the sampling frame but were billed as inpatient vs. outpatient.

   The remaining four areas identified in the overall sample frame include 15 inpatient claims with similar
   patient status technical billing issues. Again, Orlando Health contends that the services and care
   provided to the Medicare beneficiaries were medically necessary on all claims. As such, Orlando Health
   agrees with the findings identified in the 75 claims with a value of net overpayments of $462,142,
   subject to the requested adjustment as set forth below.

   Orlando Health is committed to compliance with regulations applicable to federal health care programs
   and the quality of not only the clinical care we provide but also the financial and billing aspects of all
   services rendered within our facilities. We strive to accurately assign patients to the correct billing
   status based on clinical review which includes current severity of illness, comorbidities, risk of adverse
   outcome, and intensity of service/treatment. We agree with the recommendation to strengthen
   controls to ensure full compliance with Medicare requirements, and we have undertaken a number of
   corrective actions in this regard to date including but not limited to: 1) educating our physicians and
   case management staff of\ documentation requirements for inpatient short stays, 2) quarterly audit
   review, 3) work flow process with our electronic medical record updates, and 4) collaboration with all
   teams engaging leadership, case management, revenue cycle, and compliance teams in a review of
   internal controls and consistent monitoring of our processes.

   Oa-lando Health agrees with the findings identified in the 75 individually audited claims. With respect to
   the extrapolation approach, we have concerns about the methodology and the statistical validity of the
   extrapolation amount requested of $1,453,243. While we will accept this amount for the limited
   purpose of completing this step of the audit process, we reserve the right to further contest the
   extrapolation methodology as it applies to the non·audited accounts in the audit period.

   Further, even if this extrapolation methodology is valid, it substantially overestimates any potential
   overpayment because it is not reflective of the potential Medicare Part 8 reimbursement. Orlando
   Health has calculated the value of that potential reimbursement based on our historical Medicare Part 8
   reimbursement to be $821,398. As such, we request that the OIG modify the original extrapolated
   overpayment amount ($1,453,243) by the calculated Medicare Part B historical reimbursement value of
   the extrapolated population {$821,398) and that Orlando Health be requested to pay the restated
   overpayment amount of $631,845 ($1,453,243 • $821,398" $631,845). This amouf\t accurately reflects
   the net overpayment value of the extrapolated claims using the OIG methodology. Since the OIG used
   extrapolation over the claim population it is only reasonable and appropriate that the same
   methodology is used for the Medicare Part B reimbursement.

   The alternative to applying the average Medicare Part B reimbursement value to the extrapolated
   population is for the OIG to request our Medicare administrative contractor to reopen all claims in the
   extra potation population and prepare to adjudicate these claims under Medicare Part B. Past requests
   such as this have led to a condensed window for providers to process and resubmit claims resulting in
   significant administrative burden and costs on behalf of both the provider and administrative
   contractor. In addition, reopening and adjudicating these claims will result in Medicare beneficiaries
   receiving an explanation of benefit statement for services as much as fuur years old and potentially
   being liable for recalculated out of pocket coinsurance amounts. These new billable patient liabilities
   will cause not only financial burdens on our Medicare beneficiaries. but also have the potential to



                                                                                         -

Medicare Complictr¥:e Review ofOrlando Health (A-04-13-07042)                                                   14
                               .
     I~
                             1414 Kuhl Ave.
                             Orisldo. A. 32800
0RLAN00 liEI\LTH             321.843.71m

      ~                      OrlmdoHe!lth.oon:
   stsnificantly increase the related correspondence and inquiries to Medica re service centers. Another
   consideration is the impact these billing ch~nges may have on claims previously billed as lnp~tient which
   now will be billed as outp~tient and therefore not represent a qualifying stay prior to a skilled nursing
   f~cillty admission. These respective scenarios could resu lt in the impacted skilled nursing facility
   provider refunding prior payments to the Medicare administrative contractor and subsequently holding
   the beneficiary liable for those expenses previously paid by Medicare.

   We would like to take this opportunity to comrnunicate how much we appreciated work In~
   collaborattvcly with the Senior Auditor and his team during the course of this audit. We take pride in
   the quality and wst effectiveness of the c•re we provide to our patients, and we strive for continuous
   Improvement in ~II areas of our operations, Includi ng providi ng staff education, ensurin& complete and
   accurate documentation, and maint~l ning a compliance program. We are confident that the corrective
   measures Orlando Health has undertaken from t his audit have strengthened our controls to ensure full
   compliance with Medicare requirements.



   Sincerely,

   Orlando




   4842· 3726-4892 . • . 1




                                                                                        -

M~dlccrr~   Complicore Review ofOrlando Health (A-04-13-07042)                                                 15
